TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Improvements Are Needed to Ensure
                     Timely Resumption of Critical Business
                        Processes After an Emergency



                                      September 24, 2013

                              Reference Number: 2013-10-102




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                 HIGHLIGHTS


IMPROVEMENTS ARE NEEDED TO                           processes or a plan to resume its critical
ENSURE TIMELY RESUMPTION OF                          functions after an emergency. Even when local
CRITICAL BUSINESS PROCESSES                          site-specific continuity processes and plans
AFTER AN EMERGENCY                                   were prepared, some of them did not contain all
                                                     of the elements consistent with both Federal and
                                                     IRS guidance.
Highlights                                           Since August 2012, the IRS has not used a
                                                     central repository for immediate access by
Final Report issued on                               management to continuity plans in the event of
September 24, 2013                                   an emergency. Also, continuity personnel
                                                     responsible for updating and maintaining the
Highlights of Reference Number: 2013-10-102          plans often changed jobs, and new personnel
to the Internal Revenue Service Chief,               were not adequately trained to carry out all of
Agency-Wide Shared Services.                         their responsibilities regarding continuity
                                                     planning. Finally, the IRS did not perform
IMPACT ON TAXPAYERS                                  sufficient testing and exercises as required to
Effective continuity planning and emergency          validate recovery strategies and procedures or
preparedness can facilitate the IRS’s ability to     to adequately address weaknesses identified
prepare for, respond to, and recover from            during continuity exercises to ensure the viability
emergencies. The IRS needs to improve                of the continuity plan in the event of an
selected aspects of its continuity program.          emergency.
Absent effective continuity planning, the IRS        WHAT TIGTA RECOMMENED
may be challenged to effectively collect taxes,
issue refunds, and respond to taxpayer inquiries     TIGTA recommended that the Chief,
after an emergency occurs.                           Agency-Wide Shared Services, implement a
                                                     process to ensure that the annual certification
WHY TIGTA DID THE AUDIT                              requirement is met; ensure that continuity plans
This review is included in our Fiscal Year 2013      are immediately prepared for four business units
Annual Audit Plan and addresses the major            and that the existing continuity plan template is
management challenge of Security for Taxpayer        used by all business units and functional offices;
Data and Employees. The overall objective of         identify and monitor appropriate training to be
this review was to assess whether the IRS’s          completed by field personnel responsible for
continuity program will enable the IRS to resume     continuity planning; develop a plan that
critical functions in a timely manner.               establishes time frames for the implementation
                                                     of a fully functioning continuity plan database;
WHAT TIGTA FOUND                                     and establish a process to monitor the continuity
                                                     tests and exercise program so that business unit
The IRS did not always demonstrate that its          personnel meet the annual requirements.
continuity plan process would ensure that critical
business processes are resumed in a timely           In their response to the report, IRS management
manner. For example, the IRS did not meet the        agreed with all eight recommendations and
Fiscal Year 2012 annual reporting requirement        stated that they plan to take or have taken
to the Department of the Treasury certifying its     corrective actions, including updating policies
continuity capability plan. In addition, some        and monitoring training requirements.
continuity plans were not prepared as required
or were missing key information to facilitate the
resumption of critical IRS operations. For
example, four of the 22 business units’
systemwide continuity plans were not prepared.
In addition, one local office within a business
unit did not have site-specific continuity
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 24, 2013


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Improvements Are Needed to Ensure Timely
                             Resumption of Critical Business Processes After an Emergency
                             (Audit # 201210008)

 This report presents the results of our review to assess whether the Internal Revenue Service’s
 (IRS) continuity plan program will enable the IRS to resume critical functions in a timely
 manner. This review is included in our Fiscal Year 2013 Annual Audit Plan and addresses the
 major management challenge of Security for Taxpayer Data and Employees.
 We would like to clarify one issue included in the IRS’s response to our report. The response
 raised a concern with the validity of certain facts included in our report. Specifically, the IRS
 contended that information in Figure 4 in the report understates the Wage and Investment (W&I)
 Division’s completion rate on tests and exercises. The IRS stated that documentation was
 submitted to the Treasury Inspector General for Tax Administration (TIGTA) prior to issuance
 of the report verifying that the required testing was 100 percent complete and that TIGTA
 refused to consider documentation that was submitted. We disagree with these statements.
 TIGTA requested and received information on continuity testing performed from four different
 business units, including the W&I Division, between November 2012 and January 2013.
 Between February 2013 and June 2013, TIGTA held multiple meetings with the IRS concerning
 audit findings and was not provided any additional information concerning the W&I Division’s
 continuity testing documentation. On June 17, 2013, we issued a discussion draft report, giving
 the IRS another chance to submit additional information to clarify and correct findings which it
 believed were inaccurate.
 On June 27 and July 8, 2013, the IRS submitted additional information for consideration. As a
 result, we adjusted the draft report in cases where sufficient evidence was provided to justify a
 change. However, certain documents provided by the W&I Division did not justify changes to
                    Improvements Are Needed to Ensure Timely Resumption
                      of Critical Business Processes After an Emergency



our report. For example, the documentation submitted as evidence of the alert notification and
activation test for the Brookhaven Campus contained the exact same names of participants listed
as evidence of the same test for the Philadelphia Campus. The IRS later acknowledged that the
Brookhaven and Philadelphia forms were inadvertently duplicated due to human error. Due to
those types of inaccuracies, we were unable to rely on some of the documentation submitted as
evidence that 100 percent of the W&I Division’s tests and exercises were completed.
Management’s complete response to the draft report is included as Appendix IV
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. If you have any questions, please contact me or Gregory D. Kutz, Assistant
Inspector General for Audit (Management Services and Exempt Organizations).




                                                                                              2
                            Improvements Are Needed to Ensure Timely Resumption
                              of Critical Business Processes After an Emergency




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Systemwide Continuity Plans Were Not Prepared or
          Lacked Sufficient Detail ............................................................................... Page 5
                    Recommendations 1 through 4:......................................... Page 11

          The Centralized Repository to Control Continuity Plans
          Is Not Functioning As Intended .................................................................... Page 12
                    Recommendations 5 and 6: .............................................. Page 13

          More Comprehensive Testing and Exercises of
          Continuity Plans Are Necessary ................................................................... Page 13
                    Recommendation 7:........................................................ Page 15

                    Recommendation 8:........................................................ Page 16


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 17
          Appendix II – Major Contributors to This Report ........................................ Page 19
          Appendix III – Report Distribution List ....................................................... Page 20
          Appendix IV – Management’s Response to the Draft Report ...................... Page 21
        Improvements Are Needed to Ensure Timely Resumption
          of Critical Business Processes After an Emergency




                    Abbreviations

BU            Business Unit
FCD           Federal Continuity Directive
IRS           Internal Revenue Service
LB&I          Large Business and International
NCPOC         National Continuity Point of Contact
OCO           Office of Continuity Operations
SB/SE         Small Business/Self-Employed
TE/GE         Tax Exempt and Government Entities
TIGTA         Treasury Inspector General for Tax Administration
TSCC          Toolkit Suite Command Centre
W&I           Wage and Investment
                        Improvements Are Needed to Ensure Timely Resumption
                          of Critical Business Processes After an Emergency




                                             Background

The Internal Revenue Service (IRS) has an obligation to protect the Federal Government’s tax
administration system. This system is made up of a network of critical business processes that
help carry out the mission of the IRS during both normal and adverse conditions. Effective
continuity planning and emergency preparedness can facilitate the IRS’s ability to prepare for,
respond to, and recover from emergencies. These efforts include restoring critical IRS functions
and providing human resources to support employee needs, which may involve approving
alternative work schedules and personnel reassignments. When an emergency occurs, it is
important to timely resume business operations because an extended disruption to IRS facilities
can affect key processes, such as collecting taxes, processing tax returns and refunds, and
responding to taxpayer inquiries. During Fiscal Year1 2011, the IRS reported that it processed
almost 235 million returns, of which more than 133 million were filed electronically. The IRS
also provided nearly $416 billion in refunds and collected more than $2.4 trillion in taxes. In
addition, according to 2011 Filing Season statistics, there were nearly 323 million visits to IRS
websites from January 1 through December 31, 2011. Any sustained disruption to IRS
operations and offices could ultimately have a negative impact on the Nation’s economy as well
as taxpayer data and compliance.
To facilitate the performance of critical functions in emergency situations, the Federal
Government established policies that provide direction to Federal agencies for continuity
planning and programs. In May 2007, the President issued National Security Presidential
Directive 51 to establish and maintain a comprehensive and effective national continuity
capability to ensure the continuing performance of national essential functions under all
conditions. To provide additional operational guidance to implement this policy, the
U.S. Department of Homeland Security developed Federal Continuity Directives (FCD) 1 and 2.2
This guidance provides direction for developing continuity plans and programs as well as the
identification of agency essential functions. To provide planning guidance to implement these
policies, in Calendar Year 2009, the Department of Homeland Security also developed FCD 3,


1
  A 12-consecutive-month period ending on the last day of any month. The Federal Government’s fiscal year begins
on October 1 and ends on September 30.
2
  FCD 1 describes the key elements of a viable continuity capability and the importance of coordinating with
non-Federal organizations to establish and maintain a comprehensive and effective national continuity capability.
FCD 2 provides implementation guidelines for the requirements identified in FCD 1. It provides direction and
guidance to Federal entities for identifying their mission-essential functions and potential primary mission-essential
functions. Primary mission-essential functions represent a subset of agency-level mission-essential functions that
must be performed to support the performance of the national essential function before, during, and after an
emergency; whereas, mission-essential functions are activities that enable the IRS to provide vital services, exercise
civil authority, maintain public safety, and sustain the industrial and economic base during an emergency.
                                                                                                              Page 1
                           Improvements Are Needed to Ensure Timely Resumption
                             of Critical Business Processes After an Emergency



which provides a continuity plan template that agencies may use to establish continuity plans and
programs. Although the template is voluntary, it addresses each of the elements and
requirements found in FCDs 1 and 2. In July 2009, the IRS created the Toolkit Suite Command
Centre (TSCC) to serve as a central storage point for all IRS continuity plans and provide easy
access as needed during an emergency.
The IRS is required to submit an annual report to the Department of the Treasury certifying that
it has a continuity capability3 plan which ensures its ability to continually perform its
mission-essential functions. IRS guidance calls for senior management responsible for IRS
business, operational, and functional units to ensure continuity plans are developed, exercised,
maintained, and updated. The IRS must also ensure that key leaders and support staff are trained
on IRS mission-essential functions as well as conduct comprehensive testing of its continuity
plans. The entire continuity plan must be reviewed annually and updated accordingly. IRS
guidance also requires the development of a separate continuity plan for each of its 22 business
units (BU).4 In addition, several process recovery and subplans are also maintained for various
locations and offices within those 22 BUs throughout the IRS. Figure 1 lists the IRS’s 22 BUs
that are required to have a continuity plan.
                                     Figure 1: List of the IRS’s 22 BUs

    Affordable Care Act           Agency-Wide Shared          Appeals Office                Chief Counsel
    Program Office                Services

    Chief Financial Office        Communications and          Criminal Investigation        Equity, Diversity, and
                                  Liaison                                                   Inclusion

    Human Capital Office          Information                 Large Business and            Office of Compliance
                                  Technology                  International (LB&I)          Analytics
                                                              Division

    Office of Online              Office of Professional      Privacy, Governmental         Research, Analysis, and
    Services                      Responsibility              Liaison, and Disclosure       Statistics

    Return Preparer Office        Small Business/             Tax Exempt and                Taxpayer Advocate
                                  Self-Employed               Government Entities           Service
                                  (SB/SE) Division            (TE/GE) Division

    Wage and Investment           Whistleblower Office
    (W&I) Division
Source: Treasury Inspector General for Tax Administration’s (TIGTA) analysis of the IRS’s BUs list.



3
    The IRS continuity capability refers to its ability to perform its mission-essential functions continuously.
4
    The term used to include IRS business operating divisions as well as its principle, functional, and project offices.
                                                                                                                   Page 2
                              Improvements Are Needed to Ensure Timely Resumption
                                of Critical Business Processes After an Emergency



In prior audits, TIGTA identified weaknesses in the IRS’s emergency planning processes. For
example, in Fiscal Year 2011, TIGTA performed a review5 to determine whether the IRS
adequately prepared for and took the necessary actions to protect its employees, taxpayer data,
and Government property following the intentional flying of an airplane into an IRS building.
Although the Fiscal Year 2011 review showed that the IRS took the necessary actions to
evacuate and protect IRS employees, emergency planning was incomplete. Specifically, we
found that none of the business resumption plans for the eight BUs located at the IRS building
included all of the required elements. A similar condition was also reported in a Fiscal
Year 2008 audit6 in which we found that IRS business resumption plans were not adequately
completed, lacked detailed planning, and would not facilitate the efficient recovery of critical
business operations.
In March 2011, under the administration of the Office of Physical Security and Emergency
Preparedness, the IRS agreed to the development of a Continuity Improvement Plan. In
January 2012, the Office of Continuity Operations (OCO) was established to manage and
provide oversight of the IRS’s continuity program. Figure 2 illustrates the placement of the
newly created OCO within the IRS.
                              Figure 2: Placement of the Newly Created OCO

                IRS Commissioner


    Deputy Commissioner for Operations Support


                                        Agency-Wide Shared Services


                                                                      Employee Support Services


                                                                                                  Office of Continuity Operations

Source: TIGTA’s analysis of the OCO’s organizational structure.

To further support the IRS’s continuity program, each BU designated at least one staff person to
serve as its National Continuity Point of Contact (NCPOC). The NCPOCs are primarily
responsible for ensuring that each BU is properly prepared and ready to respond should a
significant incident occur.



5
  TIGTA, Ref. No. 2011-10-098, The Internal Revenue Service Adequately Prepared for and Responded to the
Austin Incident (Sept. 2011).
6
  TIGTA, Ref. No. 2008-20-178, Weaknesses in Business Resumption Plans Could Delay Recovery From a Disaster
(Sept. 2008).
                                                                                                                                    Page 3
                      Improvements Are Needed to Ensure Timely Resumption
                        of Critical Business Processes After an Emergency



We performed on-site audit work at the IRS OCO Headquarters in Washington, D.C.,
and at the local field offices of the W&I Division in Kansas City, Missouri; LB&I Division in
New York City, New York; SB/SE Division in Ogden, Utah; and TE/GE Division in
Washington, D.C., during the period August through December 2012. Another TIGTA audit
reported7 on the IRS’s disaster recovery testing to recover major computing systems; therefore,
we did not perform any information technology audit work at the Martinsburg, West Virginia, or
Memphis, Tennessee, Computing Centers. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




7
 TIGTA, Ref. No. 2012-20-041, Disaster Recovery Testing Is Being Adequately Performed, but Problem Reporting
and Tracking Can Be Improved (May 2012).
                                                                                                     Page 4
                          Improvements Are Needed to Ensure Timely Resumption
                            of Critical Business Processes After an Emergency




                                        Results of Review

Systemwide Continuity Plans Were Not Prepared or Lacked Sufficient
Detail
The IRS did not submit an annual report to the Department of the Treasury certifying that it has a
continuity capability plan as required. In addition, not all IRS BUs prepared a systemwide
continuity plan, and none of the local site-specific continuity processes and plans we reviewed
were created or maintained in the TSCC so that they would be immediately available for
management during an emergency. Finally, adequate testing was not performed to ensure the
viability of continuity plans.

The IRS did not submit its annual continuity certification report to the Department
of the Treasury
The IRS did not meet the Department of the Treasury’s annual reporting requirement certifying
its continuity capability plan for Fiscal Year 2012. According to FCD 1, Federal Government
executive agencies are to annually submit a report to the National Continuity Coordinator
certifying that the agency has a continuity capability plan. This guidance also provides key
questions and measurements to use to certify that their organizations have a robust continuity
capability. To facilitate this requirement within the IRS, the Internal Revenue Manual8 requires
the IRS to submit an annual report to the Department of the Treasury certifying that it has a
continuity capability plan that includes all the necessary requirements. OCO management did
not provide any documentation or specific reason why the annual reporting requirement to the
Department of the Treasury was not met.

Continuity plans for some IRS BUs were not prepared
We found that four of the 22 current systemwide continuity plans were not prepared.
Specifically, the four BUs are:
          Return Preparer Office: Responsible for registration, testing, and suitability of Federal
           tax preparers.
          Office of Online Services: Responsible for delivering strategy, policy, and initiatives to
           strengthen the IRS online services experience.



8
    Internal Revenue Manual 10.2.10.2.1 (Sept. 25, 2008).
                                                                                               Page 5
                        Improvements Are Needed to Ensure Timely Resumption
                          of Critical Business Processes After an Emergency



        Affordable Care Act Program Office: Responsible for implementing tax provisions for
         Affordable Care Act legislation.9
        Office of Compliance Analytics: Responsible for strategic compliance priorities.
Internal Revenue Manual 10.2.10.10.2.3, Senior Management/Executives, states that IRS
management responsible for a business, operating, or functional units should ensure that
continuity plans are developed, exercised, implemented, and maintained. In addition, at a
minimum, the entire continuity plan is to be reviewed annually and updated accordingly. OCO
management stated that the reason continuity plans were not prepared for these four BUs was
because they were fairly new and three of the BUs were given verbal extensions to submit their
continuity plans by the end of Calendar Year 2013. However, management could not provide
any documentation to support that a verbal extension was granted. In addition, we found that all
four BUs have been in existence for nearly two years. The absence of a continuity plan increases
the risk that the four IRS BUs will be unable to resume their critical functions following an
emergency.

Continuity plans for some IRS BUs were incomplete
During our review of systemwide continuity plans for the four BUs selected, we found that
continuity plans for two of the four BUs were incomplete.10 Specifically, the LB&I and TE/GE
Divisions’ plans failed to include sufficient detail and all of the required elements prescribed in
the IRS’s standard continuity plan template. For example, the two continuity plans provided
limited details above the preformatted language contained in the standard template regarding
their essential functions and plans for resuming their business processes. Both plans stated that
emergency conditions may require the relocation of staff to a continuity facility; however, the
plans failed to identify the alternate continuity facilities and continuity communications, which
include systems and information technology capabilities to support connectivity among key
Government leadership. In addition, the two plans did not identify the vital records needed by
the employees to perform their duties or document key details and recovery strategies.
Furthermore, the LB&I and TE/GE Divisions’ systemwide plans did not identify delegation of
authorities, which are critical in providing the legal authority for management to make key
policy decisions during an emergency. Figure 3 identifies the required key elements that we
determined were both complete and incomplete for the four systemwide continuity plans
reviewed.



9
  Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered section of the U.S. Code), as amended
by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
10
   The results of our detailed review of systemwide continuity plans for the four BUs cannot be projected beyond
those four BUs. A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the
population.
                                                                                                             Page 6
                           Improvements Are Needed to Ensure Timely Resumption
                             of Critical Business Processes After an Emergency



                       Figure 3: Incomplete Systemwide Continuity Plans11

                                                      W&I             SB/SE             LB&I             TE/GE
     Key Continuity Plan Elements                    Division        Division          Division          Division
     Essential Functions                            Complete        Complete          Incomplete        Incomplete
     Orders of Succession                           Complete        Complete          Complete           Complete
     Delegation of Authorities                      Complete        Complete          Incomplete        Incomplete
     Continuity Facilities                          Complete        Complete          Incomplete        Incomplete
     Continuity Communications                      Complete        Complete          Incomplete        Incomplete
     Vital Records                                  Complete        Complete          Incomplete        Incomplete
     Human Capital                                  Complete        Complete          Complete           Complete
     Tests, Training, and Exercises                 Complete        Complete          Complete           Complete
     Devolution                                     Complete        Complete          Complete           Complete
     Reconstitution                                 Complete        Complete          Complete           Complete
 Source: TIGTA’s analysis of the systemwide continuity plans for the four BUs we reviewed.

FCDs 1 and 2 guidelines call for continuity plans to be developed and documented so that, when
implemented, the plans and procedures will provide for the continued performance of an
organization’s essential functions under all circumstances. Among other required elements,
these plans should include a description of prioritized mission-essential functions, critical
activities, and identification and safekeeping of vital records. Further, Internal Revenue Manual
10.2.10.8, Continuity Plan Content and Format,12 calls for the development of a standardized
continuity plan template that must be used by all business, operating, and functional units when
preparing, updating, or creating a continuity plan. Consequently, in June 2009, the IRS created a
mandatory systemwide continuity plan template to be used by the BUs, which addressed each of
the elements and requirements found in FCDs 1 and 2. We determined that the continuity plans
were to address the following key elements:
          Essential Functions – identifies each BU’s prioritized mission-essential functions, which
           are a limited set of agency-level Government functions that must be continued throughout
           or resumed rapidly after a disruption of normal activities.
          Orders of Succession – addresses current orders of succession to the BU head and key
           positions, such as administrators, directors, and key managers within the BU.


11
     Incomplete indicates the plan did not include information to address the specific continuity element as required.
12
     Internal Revenue Manual 10.2.10.8 (Sept. 25, 2008).
                                                                                                                 Page 7
                    Improvements Are Needed to Ensure Timely Resumption
                      of Critical Business Processes After an Emergency



      Delegations of Authority – identifies the legal authority for individuals to make key
       policy decisions during a continuity situation.
      Continuity Facilities – identifies alternate uses of existing facilities or virtual offices, for
       the relocation of key leaders and staff, located where the potential disruption of the BU’s
       ability to initiate and sustain operations is minimized.
      Continuity Communications – identifies critical communications and information
       technology to support connectivity among key Government leadership, internal and other
       BUs, critical customers, and the public during crisis and disaster conditions.
      Vital Records – identifies electronic and hardcopy documents, references, and records
       that are needed to support essential functions during a continuity situation.
      Human Capital – focuses on BU continuity personnel and all other special categories of
       employees who have not been designated as continuity personnel.
      Tests, Training, and Exercises – identifies measures to ensure that an agency’s
       continuity plan is capable of supporting the continued execution of the agency’s essential
       functions throughout the duration of a continuity situation.
      Devolution of Control and Direction – addresses the full spectrum of threats and events
       that may render a BU’s leadership or staff unavailable to support or execute the BU’s
       essential functions from either its primary or continuity locations.
      Reconstitution – identifies a plan to return to normal operations once BU heads or their
       successors determine resuming normal business operations can be initiated.
We attribute the missing elements and lack of sufficient detail included in the continuity plans to
organizational changes, lack of oversight, and inadequate training and guidance. Since Calendar
Year 2011, the NCPOCs responsible for updating and maintaining these two systemwide
continuity plans have changed. According to one NCPOC, no continuity plan guidance or
instructions were provided by the OCO. Furthermore, another NCPOC responsible for drafting
the BU’s systemwide plan stated that she has not received any formal continuity training since
March 2011. Even in situations in which staffing changes occur frequently, all appropriate staff
must be adequately trained. If proper training does not occur, continuity personnel may be
unable to fulfill their responsibilities and duties in an emergency situation.

Local site-specific continuity processes and plans were not prepared in a format
consistent with the prescribed guidance and were missing key information
We found that the local site-specific processes and continuity plans for three of four offices we
visited were not prepared in the standardized format and did not contain all information
consistent with Federal and IRS guidance. For the remaining office, we determined that TE/GE
Division management had not prepared a site-specific continuity process and plan for its

                                                                                                Page 8
                        Improvements Are Needed to Ensure Timely Resumption
                          of Critical Business Processes After an Emergency



Washington, D.C., office. Instead, TE/GE Division management used the overall TE/GE
Division’s systemwide plan for its local continuity plan. However, we found that TE/GE
Division’s systemwide plan did not include specific details that would facilitate the resumption
of key business operations nor any site-specific processes and information for the local
Washington, D.C., office. In assessing the ability of the IRS to resume key business operations
at its local offices, we visited four local BU offices and reviewed the site-specific continuity
processes and plan for each location. Specifically, we reviewed the W&I Division’s plans for
the Kansas City Campus,13 the SB/SE Division’s plans for the Ogden Campus, and the LB&I
Division’s plan for the New York City field office14
Through a comparison of the IRS’s standardized template and the local site-specific processes
and plans, we found that the information contained in the old business resumption plans that
were being used by the Kansas City and Ogden Campuses along with the New York City field
office’s plan lacked several of the key elements included in both the Department of Homeland
Security and IRS guidelines. Specifically, the continuity plans completed for the three local
offices were incomplete and lacked many of the following key elements:
        Orders of Succession.
        Delegation of Authorities.
        Continuity Facilities.
        Continuity Communications.
        Tests, Training, and Exercises.
        Devolution.
        Reconstitution.
Internal Revenue Manual 10.2.10.5, Requirements for Continuity Plans and Procedures, states
that the key elements of continuity that shall be addressed include: mission-essential functions;
orders of succession; delegations of authority; continuity facilities; continuity communications
systems; vital records; human capital; test, training, and exercises; devolution; and reconstitution.
In addition, in January 2012, IRS Agency-Wide Shared Services management issued written
guidance, Fiscal Year 2012 IRS Continuity Program Requirements, to facilitate effective
business continuity planning and help ensure that the standard continuity plan template is used to
meet all required elements on an annual basis.




13
   There are 10 IRS campuses across the country that provide customer service to taxpayers by responding to
taxpayer questions and helping them understand and meet their tax responsibilities.
14
   See Appendix I for details on why we selected these BU locations.
                                                                                                              Page 9
                       Improvements Are Needed to Ensure Timely Resumption
                         of Critical Business Processes After an Emergency



We found that the local plans were incomplete due in part to the local IRS campus and field
office staff being unaware of the IRS’s standardized template and using their old business
resumption plan format for several years. We also found that local officials did not receive any
recent training related to the preparation and testing of their local plans. Further, the OCO has
not prepared detailed guidance and procedures to assist local officials responsible for continuity
planning, nor is there a formal review and approval process for continuity plans. In addition, the
TE/GE Division’s continuity staff thought that its systemwide plan covered its local
Headquarters office in Washington, D.C.
We determined that although the Fiscal Year 2012 IRS Continuity Program Requirements
included continuity testing and exercise requirements, it did not provide a process for the training
of staff responsible for drafting continuity plans. Through interviews, we learned that several
staff responsible for managing and drafting plans at the locations we visited were not properly
trained. In addition, several key staff at three of the four local BUs we visited had not been
provided or participated in any formalized continuity training. For example, an IRS staff person
at one campus location confirmed that she did not receive any instructions, written guidance, or
training on how to prepare a continuity plan and, absent the use of another division’s continuity
plan, would not have known where to go, where to look, and what information to include in the
plan. Staff at one field office site located in the area affected by Hurricane Sandy received
copies of a prior continuity plan from a co-worker who previously held the same position to use
as a guide and had not received any guidance on preparing a continuity plan.
In response to the impact of Hurricane Sandy15 on the LB&I Division’s Midtown office, we
obtained its Employee Reporting Form dated November 7, 2012, to determine whether or not the
Midtown office was able to account for its employees as part of its continuity process.
According to this report, the LB&I Division was able to account for all of its employees as of
that date.
According to the OCO’s November 2012 Quarterly Report on NCPOC Training, only three of
the 47 NCPOCs have completed all four of the introductory continuity planning courses offered
through the IRS’s training website. Aside from the quarterly report, OCO management has no
centralized tracking system to monitor the training courses continuity planning personnel
complete. IRS OCO management stated that it is the responsibility of the NCPOCs to monitor
applicable training for personnel involved in continuity planning. However, only the NPOCs for
two of the four BUs we reviewed were able to provide us with comprehensive lists of training
completed by staff involved in continuity planning for their respective BUs.
Incomplete and inaccurate documentation of the recovery procedures and strategies in IRS
continuity plans may impede the recovery of critical tax administration processes.


15
   Hurricane Sandy, which reached New York City on October 29, 2012, was the deadliest and most destructive
tropical cyclone of the 2012 Atlantic hurricane season and the second-costliest hurricane in U.S. history.
                                                                                                       Page 10
                    Improvements Are Needed to Ensure Timely Resumption
                      of Critical Business Processes After an Emergency



Recommendations
The Chief, Agency-Wide Shared Services, should:
Recommendation 1: Implement a process to ensure that the annual reporting requirement to
the Department of the Treasury certifying its continuity capability plan is met.
       Management’s Response: IRS management agreed with this recommendation and
       will ensure that updates to Internal Revenue Manual 10.6.1, Continuity Operations –
       Continuity Planning Requirements, will be completed once the Department of the
       Treasury has defined and issued the official reporting requirements for certifications at
       the bureau level. They will then establish and implement a process to ensure that the
       annual reporting requirement of its continuity plan is met.
Recommendation 2: Ensure that systemwide continuity plans are immediately prepared for
the Affordable Care Act Program Office, the Return Preparer Office, the Office of Compliance
Analytics, and the Office of Online Services.
       Management’s Response: IRS management agreed with this recommendation and
       stated that continuity plans were prepared for the Affordable Care Act Program Office,
       the Return Preparer Office, and the Office of Online Services. Further research showed
       that the Office of Compliance Analytics was added as a component of the
       Commissioner’s Complex in 2011 and is therefore included in their overall continuity
       plan.
Recommendation 3: Ensure that the existing IRS continuity plan template is current and
used by all BUs and local offices.
       Management’s Response: IRS management agreed with this recommendation and
       will review and update the continuity plan template and communicate the mandatory use
       of the template to all affected BUs and local offices.
Recommendation 4: Identify appropriate training that should be completed by field
personnel responsible for continuity planning activities and establish an effective monitoring
process to ensure that training is completed.
       Management’s Response: IRS management agreed with this recommendation and
       will identify appropriate training required to be completed by field personnel responsible
       for continuity planning. The IRS will also establish an effective monitoring process to
       ensure that required training is completed.




                                                                                           Page 11
                    Improvements Are Needed to Ensure Timely Resumption
                      of Critical Business Processes After an Emergency




The Centralized Repository to Control Continuity Plans Is Not
Functioning As Intended
We determined that none of the local continuity plans we reviewed were created or maintained in
the TSCC. In addition, most of the personnel at the campuses and field offices we visited
responsible for continuity planning were unaware of the existence of the TSCC. Those who
were familiar with the system confirmed that the system was rarely used.
Since July 2009, the TSCC has been designated as the repository database for IRS continuity
personnel to create and store IRS continuity plans and other related documents. Agency-Wide
Shared Services’ August 2010 IRS Continuity Program Requirements called for BU staff to input
their continuity plans into the TSCC. Since that time, systemwide continuity plans have been
maintained and updated within the system. Currently, the OCO is responsible for maintaining
the TSCC and ensuring that it contains all plans. However, we determined that the TSCC is
currently not being used to house and track continuity planning documents. Consequently, OCO
management does not have the necessary management information available in a centralized
location to assist in continuity planning if a serious incident occurs.
Although the Fiscal Year 2012 IRS Continuity Program Requirements provides for the
development and update of continuity plans using the standard template to ensure that all
required elements are met annually, the guidance did not require the use of the TSCC as a
management tool for IRS continuity plans. OCO management stated that there have been
numerous complaints about the functionality of the system, and the NCPOCs in one BU stated
that the TSCC is not user friendly and is unable to generate useful reports by users. As a result,
OCO management stated that they have not directed BU personnel to create or update continuity
plans in the TSCC since August 2012.
OCO management indicated that in March 2012 a technology specialist was assigned to review
the TSCC application for improvements. In August 2012, OCO personnel informed us that they
expected a new version of the TSCC to be completed and available for use in April 2013.
However, in April 2013, the OCO confirmed that although progress has been made, it does not
expect a major part of its system reconfiguration process to be complete until June or July 2013
due to the lack of funding. The OCO further stated that once the reconfiguration process is
completed, the next steps will be to migrate all of the remaining BUs to the TSCC.
Consequently, the OCO was unable to provide an alternative or tentative release date for the new
version of the TSCC. Until the OCO rolls out a new centralized repository system or makes
improvements to the existing TSCC, the IRS will not have a central location for immediate
access to all BU continuity plans in the event of an emergency.




                                                                                           Page 12
                    Improvements Are Needed to Ensure Timely Resumption
                      of Critical Business Processes After an Emergency




Recommendations
The Chief, Agency-Wide Shared Services, should:
Recommendation 5: Develop a plan that establishes the actions and time frames for the
implementation of a centralized working database for continuity plan tracking. In the interim,
management should ensure that all current continuity plans are obtained from BU personnel and
maintained for immediate reference.
       Management’s Response: IRS management agreed with this recommendation and
       will develop a plan and time frame for implementation of a centralized working database
       in the TSCC for continuity plan tracking. IRS management will also ensure that all
       current continuity plans are obtained from BU personnel and maintained for immediate
       reference.
Recommendation 6: Develop and issue written procedures requiring necessary personnel to
create and update future continuity plans on the TSCC when the system is fully functional.
       Management’s Response: IRS management agreed with this recommendation and
       will ensure development and issuance of written procedures requiring personnel to create
       and update future continuity plans within the TSCC.

More Comprehensive Testing and Exercises of Continuity Plans Are
Necessary
We determined that continuity testing was not comprehensive enough to ensure that IRS
management could effectively resume critical operations in an emergency situation. In addition,
we determined that deficiencies identified during continuity exercises have not been adequately
addressed. Conducting continuity tests and exercises is critical to ensuring the viability of
established continuity plans. Our review of the testing and exercises completed in Fiscal
Year 2012 showed that the BUs participated in some of the following tests and exercises:
      Calling Tree Notifications – tests the accuracy and completeness of the organization’s
       management and employees’ contact information and the procedures for reaching them
       timely.
      Alert, Notification, and Activation Tests – tests procedures to timely alert, notify, and
       activate recovery team members and validate the accuracy and completeness of their
       contact information.
      Communication Systems and Equipment Tests – tests to ensure that emergency
       communications systems, equipment, and procedures are kept in a constant state of
       readiness.

                                                                                          Page 13
                          Improvements Are Needed to Ensure Timely Resumption
                            of Critical Business Processes After an Emergency



          Tabletops Exercises – tests discussion-based exercises to ensure that each IRS
           organization’s senior team is knowledgeable of their continuity roles, responsibilities, and
           plans and procedures.
          Relocation Exercises – tests executive leadership’s readiness to respond and the ability
           to continue or resume essential or critical operations at alternate locations.
          Integrated Functional Exercises – tests the capability to continue its mission-essential
           functions within recovery time objectives.
During our audit, two of the four BUs we reviewed completed all their planned tests and
exercises in Fiscal Year 2012. Figure 4 shows the types and number of tests and exercises
completed in Fiscal Year 2012:
         Figure 4: Fiscal Year 2012 Tests and Exercises Completed 16 for Four BUs

                                 Alert,
              Calling Tree    Notification,   Communication                                   Integrated
              Notification   and Activation     Systems and        Tabletop     Relocation    Functional     Totals and
     BU          Tests           Tests        Equipment Tests      Exercises    Exercises      Exercises     Percentages

 W&I                                                                                                           14 of 23
                 0 of 1         7 of 13             3 of 3           0 of 0       0 of 1         4 of 5
 Division                                                                                                       (61%)

 SB/SE                                                                                                           9 of 9
                 1 of 1          4 of 4             3 of 3           0 of 0       0 of 0         1 of 1
 Division                                                                                                       (100%)

 LB&I                                                                                                           3 of 8
                 0 of 1          2 of 4             1 of 3           0 of 0       0 of 0         0 of 0
 Division                                                                                                       (38%)

 TE/GE                                                                                                           9 of 9
                 1 of 1          4 of 4             3 of 3           1 of 1       0 of 0         0 of 0
 Division                                                                                                       (100%)
Source: TIGTA’s analysis of Agency-Wide Shared Service’s Fiscal Year 2012 Test and Exercise Compliance
Tracking information for IRS BUs.

Of the four local offices we visited, only one location participated in a required annual tabletop
exercise in Fiscal Year 2012. We also determined that the continuity exercises performed at the
sites were either not documented in an After Action Report17 as required or the deficiencies
identified were not adequately addressed. For example, an After Action Report was not drafted
as required for the tabletop exercise conducted in Fiscal Year 2012 for the TE/GE Division.



16
   Figure 4 exhibits the aggregate total of tests and exercises, which includes those completed by local offices and
campuses within the four BUs reviewed.
17
   A document that captures a review of the effectiveness of continuity plans and procedures and the identification of
areas for improvement.
                                                                                                             Page 14
                        Improvements Are Needed to Ensure Timely Resumption
                          of Critical Business Processes After an Emergency



Both FCD 1 and Internal Revenue Manual18 guidelines require the development and maintenance
of a continuity test, training, and exercise program for conducting and documenting activities to
prepare personnel for the continuation of the performance of the IRS’s mission-essential
functions. These activities are to be performed annually and are essential to demonstrating,
assessing, and improving the ability of the IRS to execute its continuity program, plans, and
procedures.
Agency-Wide Shared Services’ Fiscal Year 2012 IRS Continuity Program Requirements called
for BUs to quarterly report and update a designated SharePoint19 site to reflect the schedule and
completion of their continuity tests and exercises. OCO management uses this SharePoint site to
monitor the status and completion of BU testing and exercises. OCO personnel are responsible
for coordinating the overall continuity testing and exercise schedule for the BUs.
Except for staff at one local office who participated in a continuity exercise in Fiscal Year 2012,
we found that a number of personnel involved in drafting and updating continuity plans at the
remaining three locations have either never participated in an exercise or participated in
exercises earlier than Fiscal Year 2012. Consequently, guidance set forth in FCD 1 and the
Internal Revenue Manual pertaining to the annual exercise requirement was not always followed.
For example, the LB&I Division’s staff stated that they participate in tabletop exercises every
two years but do not participate in integrated functional exercises. In addition, TE/GE Division’s
continuity staff stated that they participated in both a tabletops and an integrated functional
exercise in June 2012 but did not know why the June exercise was omitted from the training
records maintained on the SharePoint site. OCO management stated that all BUs are required to
participate in tabletops and integrated functional exercises and are required to keep all test and
exercise records current.
Continuity test and exercise activities validate the recovery strategies, assumptions, and
procedures against likely disasters or emergency events. However, if adequate continuity testing
is not performed or testing deficiencies are not effectively addressed, there is an increased risk
that the IRS will be unable to effectively and timely resume critical business processes.

Recommendations
The Chief, Agency-Wide Shared Services, should:
Recommendation 7: Establish a process to monitor the continuity testing and exercise
program to ensure that an adequate number of exercises are available so that BU continuity
personnel meet the annual testing and exercise requirements.



18
  Internal Revenue Manual 10.2.10.6.8 (Sept. 25, 2008).
19
  The IRS intranet website designed for workgroup collaboration and for sharing files where access should be
limited.
                                                                                                         Page 15
                    Improvements Are Needed to Ensure Timely Resumption
                      of Critical Business Processes After an Emergency



       Management’s Response: IRS management agreed with this recommendation and
       will establish a process to monitor the continuity testing and exercise program. IRS
       management further stated that in consideration of budget constraints, annual testing and
       exercises will be conducted to the best of their ability as alternative methods of meeting
       the requirements are implemented.
Recommendation 8: Establish a process to monitor deficiencies identified during continuity
exercises to ensure that weaknesses are addressed as appropriate.
       Management’s Response: IRS management agreed with this recommendation and
       will establish a process to monitor deficiencies identified during continuity exercises to
       ensure that weaknesses are addressed as appropriate.




                                                                                           Page 16
                           Improvements Are Needed to Ensure Timely Resumption
                             of Critical Business Processes After an Emergency



                                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess whether the IRS’s continuity plan program will
enable the IRS to resume critical functions in a timely manner. To accomplish our objective, we:
I.         Obtained and reviewed guidance and criteria regarding continuity plans.
           A. Obtained and reviewed Federal, U.S. Department of Homeland Security, and IRS
              criteria governing continuity plans.
           B. Obtained and reviewed guidance provided to the BUs on continuity plan preparation.
           C. Determined whether the IRS, on an annual basis, submits a report to the Department
              of the Treasury certifying that the IRS has a continuity capability plan with the
              required continuity requirements in accordance with the National Continuity Policy.
II.        Determined whether the IRS prepared continuity plans that addressed all critical
           processes.
           A. For the 22 BUs within the IRS required to submit continuity plans, determined the
              number of plans and/or subplans that have not yet been submitted or are not current.
           B. For those plans that have not been submitted or are not current, determined the cause
              and whether the plans should address any of the critical processes.
III.       Determined whether selected continuity plans were prepared in accordance with Federal
           guidelines.
           A. Reviewed the templates developed by the IRS for preparation of continuity plans to
              determine whether they were complete, adhered to guidance and criteria, and
              addressed the required critical business processes.
           B. Selected a judgmental1 sample of four of the IRS’s 22 BUs to determine if the plans
              contained all required IRS elements. To select the plans, we considered and
              identified the IRS’s critical processes, the BUs that perform these processes, the
              buildings in which the highest number of employees who perform these critical
              processes are located, and the sites that have been focal points for prior terrorist
              attacks and natural disasters. We judgmentally selected and performed site visits to
              the W&I Division’s offices at the Kansas City Campus located in Kansas City,
              Missouri; the SB/SE Division’s offices at the Ogden Campus located in Ogden, Utah;

1
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                                Page 17
                             Improvements Are Needed to Ensure Timely Resumption
                               of Critical Business Processes After an Emergency



                   the LB&I Division’s Midtown field office located in New York City, New York; and
                   the TE/GE Division’s North Capitol Field Office located in Washington, D.C. We
                   judgmentally selected the Kansas City Campus because it was estimated to process
                   the largest number of individual income tax returns in Calendar Year 2011. We
                   selected the Ogden Campus because it is the only campus responsible for processing
                   corporate and tax exempt tax returns. In addition, we selected the New York City and
                   Washington, D.C., field offices because they are located in cities where past terrorist
                   threats and incidents have occurred. Because we only reviewed four systemwide
                   plans along with local plans for one local office within each of the four BUs, the
                   results of our detailed review cannot be projected beyond those four BUs.
IV.           Determined whether the IRS conducted timely and complete tests to ensure the viability
              of continuity plans in the event of an incident.
              A. Determined whether the IRS implemented adequate policies and procedures to ensure
                 that plans are tested and maintained.
              B. Reviewed the results of tests on sampled continuity plans to determine whether
                 weaknesses identified during testing were corrected in a timely manner.
V.            Evaluated the OCO’s methodology for monitoring the continuity plan process.
              A. Determined where and how continuity plans are maintained.
              B. Determined whether continuity plans are annually reviewed independently of the
                 preparer.
              C. Determined whether a “change control process”2 was used to update and revise plans.
      Internal controls methodology
      Internal controls relate to management’s plans, methods, and procedures used to meet their
      mission, goals, and objectives. Internal controls include the processes and procedures for
      planning, organizing, directing, and controlling program operations. They include the systems
      for measuring, reporting, and monitoring program performance. We determined the following
      internal controls were relevant to our audit objective: the OCO’s policies, procedures, and
      practices for continuity planning. We evaluated these controls by interviewing personnel located
      at the OCO and four field locations and reviewing continuity and business resumption plans,
      reports documenting continuity exercises, and other related documents.




      2
       Refers to Continuity Plan Control and Maintenance (Internal Revenue Manual 10.2.10.8.1 (Sept. 25, 2008)),
      which includes procedures regarding the review and modification of continuity plans along with follow-up on
      planned controls.
                                                                                                              Page 18
                   Improvements Are Needed to Ensure Timely Resumption
                     of Critical Business Processes After an Emergency



                                                                            Appendix II

                Major Contributors to This Report

Gregory D. Kutz, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Jonathan Meyer, Director
Joseph F. Cooney Audit Manager
Jamelle L. Pruden, Lead Auditor
LaToya R. Penn, Senior Auditor
Michele N. Strong, Senior Auditor




                                                                                    Page 19
                   Improvements Are Needed to Ensure Timely Resumption
                     of Critical Business Processes After an Emergency



                                                                            Appendix III

                         Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Office of Continuity Operations, Employee Support Services, Agency-Wide Shared
Services OS:S:ESS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Agency-Wide Shared Services OS:A




                                                                                    Page 20
      Improvements Are Needed to Ensure Timely Resumption
        of Critical Business Processes After an Emergency



                                                 Appendix IV

Management’s Response to the Draft Report




                                                        Page 21
Improvements Are Needed to Ensure Timely Resumption
  of Critical Business Processes After an Emergency




                                                  Page 22
Improvements Are Needed to Ensure Timely Resumption
  of Critical Business Processes After an Emergency




                                                  Page 23
Improvements Are Needed to Ensure Timely Resumption
  of Critical Business Processes After an Emergency




                                                  Page 24
Improvements Are Needed to Ensure Timely Resumption
  of Critical Business Processes After an Emergency




                                                  Page 25
Improvements Are Needed to Ensure Timely Resumption
  of Critical Business Processes After an Emergency




                                                  Page 26
Improvements Are Needed to Ensure Timely Resumption
  of Critical Business Processes After an Emergency




                                                         
                                                  Page 27
